No. 20-440
______________________________________________________

IN THE

Supreme Court of the United States Court
______________________________________________________
MINERVA SURGICAL, INC.,

v.

Petitioner,

HOLOGIC, INC., CYTYC SURGICAL PRODUCTS, LLC,
_____________________________

Respondents.

ON A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
_____________________________
BRIEF OF AMICUS CURIAE NEW YORK
INTELLECTUAL PROPERTY LAW ASSOCIATION
IN SUPPORT OF NEITHER PARTY
_____________________________
Colman B. Ragan
President, NYIPLA
2125 Center Avenue,
Suite 616
Fort Lee, NJ 07024
Robert J. Rando

Second Vice President
Taylor English Duma
LLP
1325 Avenue of the
Americas, 28th Floor
New York, NY 10019

Irena Royzman

Counsel of Record
Co-Chair, Amicus Briefs
Committee

Kramer Levin Naftalis &
Frankel LLP
1177 Avenue of the
Americas
New York, NY 10036
(212) 715-9100
iroyzman@kramerlevin.com

Counsel for Amicus Curiae
(Additional Counsel Listed on Inside Cover)

Charles R. Macedo

Co-Chair, PTAB
Committee

David P. Goldberg

Co-Chair, Amicus Briefs
Committee
Chandler E. Sturm
Amster, Rothstein &
Ebenstein LLP
90 Park Avenue,
New York, NY 10016

Hannah Lee
Daniel Williams
Kramer Levin Naftalis &
Frankel LLP
990 Marsh Road
Menlo Park, CA 94025
Paul Coletti
One Johnson & Johnson
Plaza
New Brunswick, NJ 08933

Mark A. Chapman
Haug Partners LLP
745 Fifth Avenue
New York, NY 10151

Counsel for Amicus Curiae

i
TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ....................................... ii
INTEREST OF AMICUS CURIAE............................. 1
SUMMARY OF THE ARGUMENT ............................ 3
ARGUMENT................................................................ 5
I.

The Equitable Principles of Assignor
Estoppel Remain Vital Today .......................... 5

II.

This Court’s Application of Assignor
Estoppel is Grounded in Equity ....................... 8

III. The Federal Circuit’s Rigid Application of
Assignor Estoppel Ignores Equity ................. 11
CONCLUSION .......................................................... 13

ii
TABLE OF AUTHORITIES
Page(s)
Cases

Babcock v. Clarkson,

63 F. 607 (1st Cir. 1894) ........................................ 6

Chambers v. Chrichley,

33 Beav. 374 (1864) ................................................ 6

Curran v. Burdsall,

20 F. 835 (N.D. Ill. 1883) ....................................... 6

Diamond Sci. Co., v. Ambico, Inc.,

848 F.2d 1220 (Fed. Cir. 1988) ............ 4, 11, 12, 13

Faulks v. Kamp,

3 F. 898 (S.D.N.Y. 1880) ........................................ 6

Lear, Inc. v. Adkins,

395 U.S. 653 (1969) ........................................ 10, 11

Martin & Hill Cash-Carrier Co. v. Martin,

67 F. 786 (1st Cir. 1895) ........................................ 7

Noonan v. Chester Park Athletic Club Co.,

99 F. 90 (6th Cir. 1900) ...................................... 6, 7

Scott Paper Co. v. Marcalus Mfg. Co.,

326 U.S. 249 (1945) ................................ 3, 8, 10, 11

Westinghouse Elec. & Mfg. Co. v.
Formica Insulation Co.,

266 U.S. 342 (1924) .................................. 3, 8, 9, 10

iii

Westinghouse Elec. & Mfg. Co. v.
Formica Insulation Co.,

288 F. 330 (6th Cir. 1923) .................................... 10

Woodward v. Boston Lasting Mach. Co.,

60 F. 283 (1st Cir. 1894) ........................................ 7

1
INTEREST OF AMICUS CURIAE 1
The New York Intellectual Property Law
Association (“NYIPLA”) is a bar association of
attorneys who practice in the area of patent,
copyright, trademark and other intellectual property
(“IP”) law. 2 It is one of the largest regional IP bar
associations in the United States. Its members include
in-house counsel for businesses and other
organizations, and attorneys in private practice who
represent both IP owners and their adversaries (many
of whom are also IP owners). Its members represent
inventors, entrepreneurs, businesses, universities,
and industry and trade associations. Many of its
members are involved in research, patenting,
financing and other commercial activity across
industries.
The NYIPLA’s members and their clients
regularly participate in patent litigation on behalf of
both plaintiffs and defendants in federal court and in
proceedings before the United States Patent and
Trademark Office (“PTO”). The NYIPLA’s members
and their clients actively engage in commercial
transactions involving patents, representing both
patent assignors and assignees, including patent
Pursuant to Sup. Ct. R. 37.6, the NYIPLA and its counsel
represent that they have authored the entirety of this brief,
and that no person other than the amicus curiae or its
counsel has made a monetary contribution to the
preparation or submission of this brief.
1

Pursuant to Sup. Ct. R. 37.3(a), both Petitioner and
Respondents have each consented to the NYIPLA filing this
amicus curiae brief in support of neither party’s position on the
merits.

2

2
licensing matters. The NYIPLA thus brings an
informed perspective to the issues presented.
The NYIPLA’s members and their respective
clients have a strong interest in the issues in this case
because their activities depend on fair dealing
between patent assignors and assignees. At issue
here is whether assignor estoppel should apply as a
per se bar to any challenge by an assignor to the
validity of a patent in court, regardless of the facts of
the particular case.
A per se bar to validity
challenges, as opposed to equitable application of the
doctrine, can result in unfairness to assignors, such as
when the invention assigned is different from what is
claimed in the patent that is later asserted and the
assignor is barred from challenging the validity of the
asserted patent in court. The NYIPLA and its
members have a particularly strong interest in
meaningful and flexible application of assignor
estoppel on a case-by-case basis ensuring fairness to
both patent assignors and assignees. 3

The arguments made in this brief were approved by an absolute
majority of the NYIPLA’s officers and members of its Board of
Directors, but do not necessarily reflect the views of a majority of
the members of the Association, or of the law or corporate firms
with which those members are associated. After reasonable
investigation, the NYIPLA believes that no officer or director or
member of the Amicus Briefs Committee who voted in favor of
filing this brief, nor any attorney associated with any such
officer, director or committee member in any law or corporate
firm, represents a party to this litigation. Some officers,
directors, committee members or associated attorneys may
represent entities, including other amici curiae, which have an
interest in other matters that may be affected by the outcome of
this litigation.
3

3
SUMMARY OF THE ARGUMENT
Assignor estoppel is a judicially created,
equitable doctrine that bars an assignor of a patent
from later contesting the patent’s validity. The
doctrine has been “part of the fabric of our law
throughout the life of this nation” and has been
“enforced by English-speaking courts, in this country,
in England, in Canada, and Australia.” Scott Paper
Co. v. Marcalus Mfg. Co., 326 U.S. 249, 260 (1945)
(Frankfurter, J., dissenting). It is premised on good
faith and “fair dealing in commercial transactions,”
here between assignor and assignee, and prevents the
seller of a patent from saying that what was sold is
“worthless.” Id. at 259.
As this Court has explained, however, it can be
difficult to ascertain the scope of the conveyed patent
rights. Indeed, it is necessary to examine the scope of
that “which the assignor assigned” to reach a “just
conclusion” as to the extent of any estoppel.

Westinghouse Elec. & Mfg. Co. v. Formica Insulation
Co., 266 U.S. 342, 350-51 (1924) (holding that prior art

may be used to construe and narrow the claims of the
patent). The scope of the right conveyed in an
assignment of an invention before a patent is filed or
granted “is much less certainly defined than that of a
granted patent, and the question of the extent of the
estoppel against the assignor of such an inchoate right
is more difficult to determine than in the case of a
patent assigned after its granting.” Id. at 352-53. As
the Court explained, the claims that are pursued by
the assignee and allowed “may ultimately include
more than the assignor intended to claim.” Id. at 353.
The Federal Circuit, by contrast, has applied
assignor estoppel as a strict, bright-line rule. For

4
example, the court has applied estoppel and found it
“irrelevant” that the patent application was pending
at the time of the assignment and that the assignee
“may have later amended the claims” such that they
cover more than the assignor intended to claim or
actually invented. Diamond Sci. Co., v. Ambico, Inc.,
848 F.2d 1220, 1226 (Fed. Cir. 1988).
Here, the Federal Circuit similarly found it
irrelevant that the patent asserted by Hologic against
Minerva issued from an application filed long after the
assignment of the invention, and that the assignor,
Mr. Truckai, had no involvement in the prosecution of
Hologic’s patent application or with the claims that
issued ten years after his assignment. App. 19a 4
The court noted that Minerva argued “Hologic
[was] deploying assignor estoppel to shield its
unwarranted expansion of the patent’s scope from the
invalidity arguments created by its own overreach”
but found the argument unpersuasive since it applies
assignor estoppel as a bar to all validity defenses in
district court regardless of whether a patent
application was pending at the time of the assignment
and whether the claims were later amended by the
assignee. App. 18a-19a. The court therefore never
considered whether the claims obtained by Hologic
were an overreach. And it did not address whether
the issued claims correspond to what was actually
conveyed by the assignor. Instead, it applied a per se
bar to contesting validity, thereby precluding Minerva
from arguing that the issued claims were invalid
The NYIPLA takes no position on whether assignor estoppel
should apply based on the facts of this case. It only advocates
that whether assignor estoppel applies should be determined on
a case-by-case basis as a matter of equity.

4

5
under Section 112 and were not what the assignor
actually described and invented. App. 20a.
The Federal Circuit’s rigid application of
assignor estoppel is at odds with the fact that it is an
equitable doctrine that, consistent with this Court’s
precedent, considers the specific facts to reach an
equitable outcome for both assignees and assignors.
The Court should clarify that whether estoppel
applies or not should be determined based on the
specific facts of a given case as a matter of equity, with
analysis as to what was assigned and what claims are
ultimately asserted against the assignor. Case-bycase determination as to whether estoppel applies,
and to what extent, preserves fair dealing for the
assignee and avoids the unfairness of a bright-line
rule that precludes the assignor from challenging the
validity of an asserted patent in cases where the
issued claims are divorced from what was actually
assigned.
For these reasons and those discussed below,
the Court should overturn the Federal Circuit’s per se
application of assignor estoppel in favor of an
equitable approach.
ARGUMENT
I.

The Equitable Principles of Assignor Estoppel
Remain Vital Today

Assignor estoppel is a deeply-rooted judicial
doctrine, drawn from general equitable principles. As
explained in an English Rolls Court decision issued
over 150 years ago, a defendant, who sold his patent
but continued to manufacture an infringing product,
could not then allege that the “patent is not good” in

6
an infringement suit brought against him by the
assignee: “But this is certain; that the defendant sold
and assigned that patent to the plaintiffs as a valid
one, and having done so, he cannot derogate from his
own grant. It does not lie in his mouth to say that the
patent is not good.” Chambers v. Chrichley, 33 Beav.
374 (1864).
The Southern District of New York in Faulks v.
Kamp, citing Chambers, followed suit and held that a
seller of a patent cannot later attempt to contest the
patent’s validity. 3 F. 898, 901-02 (S.D.N.Y. 1880). It
held that after sale of the patent, “in justice,
[defendants] ought not to be heard to say that they
had it not and did not sell it, and to be allowed to
derogate from their own grant by setting up that it did
not pass.” Id. at 901. The court stressed that
“defendants shall not both sell and keep the same
thing.” Id. at 902.
It was well settled by the close of the 19th
century that an assignor cannot challenge the validity
of a patent it sold or assigned. Babcock v. Clarkson, 63
F. 607, 608 (1st Cir. 1894) (holding the patentee was
estopped from raising challenges of novelty, utility,
patentable invention, anticipatory matter, and the
state of the art against an assigned patent, except
where the state of the art had a bearing on claim
construction); Noonan v. Chester Park Athletic Club
Co., 99 F. 90, 91 (6th Cir. 1900) (“It seems to be well
settled that the assignor of a patent is estopped from
saying his patent is void for want of novelty or utility,
or because anticipated by prior inventions.”).
The decisions were rooted in principles of fair
dealing in commercial transactions. See, e.g., Curran
v. Burdsall, 20 F. 835, 837 (N.D. Ill. 1883) (“[I]t would
be grossly unjust and inequitable” to allow the

7
assignor to use a prior art patent to defeat the
assignee’s rights, “even if the older patent clearly
anticipated” the patent assigned); Woodward v.
Boston Lasting Mach. Co., 60 F. 283, 284 (1st Cir.
1894) (“It is clearly inequitable for a patentee to sell
or assign his patent, and then, in a suit against him
for infringement by his assignee, to set up that the
patent is void for want of invention.”).
Assignor estoppel was also extended to those in
privity with the assignor that helped facilitate the
infringing acts. Woodward, 60 F. at 284-85 (holding
estoppel applied to assignor and also manufacturing
partners accused of infringement); Noonan, 99 F. at
91 (“[W]e shall, for purposes of this case, assume that
the corporation is affected by the estoppel which
prevents Thompson from denying the validity of the
patents which he has assigned, and apply to it the
same principles which would affect him if he were the
sole defendant.”).
One exception to the general rule of precluding
the assignor’s use of prior art emerged. Most courts
permitted the introduction of prior art evidence for the
purpose of narrowing the claims to prove noninfringement. Noonan, 99 F. at 91 (“[T]his estoppel,
for manifest reasons, does not prevent him from
denying infringement. To determine such an issue, it
is admissible to show the state of the art involved, that
the court may see what the thing was which was
assigned, and thus determine the primary or
secondary character of the patent assigned, and the
extent to which the doctrine of equivalents may be
invoked against an infringer.”); see also Martin & Hill
Cash-Carrier Co. v. Martin, 67 F. 786, 789-90 (1st Cir.
1895) (defendant did not infringe because the claims

8
were construed narrowly in light of the state of the
art).
The origins of assignor estoppel in protecting
fair dealing for the assignee are no less vital today.
But not all cases involve a clear derogation of rights
or assert that what was sold is worthless. As the
decisions of this Court that followed these cases
illustrate, a difficulty in applying the doctrine is that
what is conveyed by the assignor may not be the same
as what is later asserted against the assignor. It is
therefore critical to determine whether estoppel
applies on a case-by-case basis, balancing fair dealing
for the assignee with fairness to the assignor.
II.

This Court’s Application of Assignor Estoppel is
Grounded in Equity

The Court addressed assignor estoppel in two
cases, Formica, and Scott Paper. In both decisions,
the Court did not apply assignor estoppel. Formica is
particularly instructive.
Formica “concerns assignment of an invention
and an inchoate right to a patent therefor before the
granting of it” which was prosecuted by the assignee
and ripened into a patent after the assignment. 266
U.S. at 352. As the Court explained, “[i]t is apparent
that the scope of the right conveyed in such an
assignment is much less certainly defined than that of
a granted patent, and the question of the extent of the
estoppel against the assignor of such an inchoate right
is more difficult to determine than in the case of a
patent assigned after its granting.” Id. at 352-53.
Further, the Court held when an assignment is made
before patent grant, and the claims are drafted and
pursued by the assignee, the granted claims “may

9
ultimately include more than the assignor intended to
claim,” and may “justify the view that the range of
relevant and competent evidence in fixing the limits
of the subsequent estoppel should be more liberal than
in the case of an assignment of a granted patent.” Id.
at 353.
The patent at issue in Formica concerned
processes for making insulating materials. The
inventor and assignor, a Westinghouse employee,
invented a two-step process for making such
materials, using first pressure and heat, followed by
cooling and baking. Other than this two-step process,
the asserted patent added “nothing new.” Id. at 354.
In accordance with his employment agreement, the
inventor assigned his patent application describing
the two-step process to Westinghouse for a dollar. He
later left Westinghouse to join what became Formica
Insulation Co., and made insulating materials using a
prior art one-step process.
Westinghouse continued to prosecute the
patent application, which issued as a patent five years
after filing. Without the knowledge or involvement of
the inventor, Westinghouse added two claims for a
process of making insulating materials using pressure
and heat. Unlike the other claims that issued and the
two-step process invention, these two claims did not
require a two-step process. Westinghouse then sued
Formica for infringement of these two single-step
process claims.
The district court dismissed the case based on
laches. The Sixth Circuit disagreed with the district
court on laches but concluded that, on the facts of the
case, no estoppel arose as to the two asserted claims
and found the claims invalid. The court stated that
“[t]he record does not support the inference that [the

10
assignor] either expressly or impliedly represented to
the Westinghouse Company [the assignee] that he
was the inventor of the process defined in these two
claims, and hence the claim of estoppel must fail.”

Westinghouse Elec. & Mfg. Co. v. Formica Insulation
Co., 288 F. 330, 334 (6th Cir. 1923).

The Court affirmed the decree. While
emphasizing the importance of assignor estoppel in
ensuring good faith in assignments and fair dealing,
it held, on the facts of the case, that “the state of the
art must limit” the claims and that estoppel “does not
extend to a single step process.” 266 U.S. at 355.
In Scott Paper, the Court similarly took a factspecific approach. There, the assignor practiced an
expired prior art patent. The Court held that an
assignor has “a complete defense to an action for
infringement where the alleged infringing device is
that of an expired patent,” and that this defense
obviated the need to consider assignor estoppel. 326
U.S. at 258.
In Lear, Inc. v. Adkins, 395 U.S. 653 (1969), the
Court abrogated licensee estoppel (which prevented a
licensee from challenging the validity of the licensed
patent), but in discussing the history of estoppel,
revisited Formica and Scott Paper. The Court in Lear
noted that the distinction created in Scott Paper
between assignors that practice expired patents as
opposed to other prior art made little sense: “If patent
policy forbids estoppel when the old owner attempts to
show that he did no more than copy an expired patent,
why should not the old owner also be permitted to
show that the invention lacked novelty because it
could be found in a technical journal or because it was
obvious to one knowledgeable in the art?” Id. at 666.
The Court stated that there “were no satisfactory

11
answers to these questions” and that the Scott Paper
“exception had undermined the very basis of the
‘general rule.’” Id.
Although the Lear Court
questioned the viability of assignor estoppel, it left the
doctrine untouched.
The Court’s precedent reflects not only the
public policy interest in fair dealing in transactions,
but also the importance of considering what was
actually assigned, and the public policy interest in
being able to practice what is already in the public
domain, such as by selling a product that practices an
expired patent. These interests can be balanced
through determination on the facts of each case as to
whether estoppel should apply as a matter of equity.
Such a case-by-case approach obviates the
incongruities created by Scott Paper and noted in
Lear. It eliminates any distinction in terms of the
particular art that is practiced, whether an expired
patent or a technical article. If estoppel does not
apply, any art may be used to challenge validity. If it
applies, then no art may be used.
III.

The Federal Circuit’s Rigid Application of
Assignor Estoppel Ignores Equity

The Federal Circuit has applied assignor
estoppel as a per se rule, without considering what
was conveyed by the assignor and what is being
asserted by the assignee. Its mechanical and onesided approach to assignor estoppel is inconsistent
with the Court’s precedent and the fact that assignor
estoppel is an equitable doctrine.
In Diamond, the first case where the Federal
Circuit considered assignor estoppel after Lear, it held
that the “the primary consideration in [] applying the

12
doctrine is the measure of unfairness and injustice
that would be suffered by the assignee if the assignor
were allowed to raise defenses of patent invalidity.”
848 F.2d. at 1225 (emphasis added). But this cannot
be the main consideration if the “analysis must be
concerned mainly with the balance of equities
between the parties.” Id. (emphasis added). The facts
and fairness to both the assignee and assignor must
be the main consideration.
Diamond, contrary to Formica, ignored facts
that could tip the balance in favor of the assignor. It
discounted as “irrelevant” that at the time of the
assignment the “patent applications were still
pending” and whether the assignee “later amended
the claims in the application process” without the
assignor’s assistance. Id. at 1226. The court stated
that such considerations did “not give appellants’
arguments against estoppel any greater force” since
patents rights were assigned before patent grant
“irrespective of the particular language in the claims
describing the inventions when the patents were
ultimately granted.” Id. (emphasis in original). The
court stated that it need not consider the scope of what
was actually conveyed or any limits on estoppel since
the guidance in Formica was a mere suggestion. Id.
The Federal Circuit applied assignor estoppel in
Diamond and in every case that followed.
In this case, just as in Diamond, the Federal
Circuit did not consider the facts as to what was
conveyed and invented as compared with what was
pursued without the assignor’s involvement and
issued. The court found it sufficient that the assignor
executed a broad assignment, which encompassed the
later issued patent.

13
Although the court noted that Minerva argued
that “Hologic is deploying assignor estoppel to shield
its unwarranted expansion of the patent’s scope from
the invalidity arguments created by its own
overreach,”
it
found
Minerva’s
argument
“unpersuasive.” App. 18a-19a. Just as in Diamond,
the court found it “irrelevant” whether it was “Hologic,
not [the assignor, that] prosecuted claim 1 of the ’348
patent” or whether “[t]he continuation application
from which the ’348 patent issued was filed in 2013,”
which was nearly a decade after the assignment. App.
19a. The court also found it irrelevant whether
“Hologic broadened the claims during prosecution”
long after the assignment. Id.
The Federal Circuit’s failure to consider these
facts is out of step with the Court’s precedent and
basic fairness. This Court should clarify that what
was conveyed and what claims are ultimately asserted
against the assignor must be assessed in determining
whether or not estoppel should be applied and to what
extent. Whether estoppel is applied has to be based
on the facts of the case and a true balancing of the
equities, rather than the Federal Circuit’s steadfast
application of the doctrine as a per se rule. There
should be no estoppel based on an invention that was
never made or conveyed by the assignor.
CONCLUSION
For the foregoing reasons, the Court should
overturn the Federal Circuit’s per se application of
assignor estoppel in favor of an equitable approach.

14
February 25, 2021

Respectfully submitted,

Colman B. Ragan
President, NYIPLA
2125 Center Avenue,
Suite 616
Fort Lee, NJ 07024

Irena Royzman

Counsel of Record
Co-Chair, Amicus Briefs
Committee

Kramer Levin Naftalis &
Frankel LLP
Robert J. Rando
1177 Avenue of the
Second Vice President Americas
Taylor English Duma New York, NY 10036
(212) 715-9100
LLP
iroyzman@kramerlevin.com
1325 Avenue of the
Americas, 28th Floor
New York, NY 10019
Charles R. Macedo

Co-Chair, PTAB
Committee

David P. Goldberg

Co-Chair, Amicus
Briefs Committee

Chandler E. Sturm
Amster, Rothstein &
Ebenstein LLP
90 Park Avenue,
New York, NY 10016

Hannah Lee
Daniel Williams
Kramer Levin Naftalis &
Frankel LLP
990 Marsh Road
Menlo Park, CA 94025
Paul Coletti
One Johnson & Johnson
Plaza
New Brunswick, NJ 08933

Mark A. Chapman
Haug Partners LLP
745 Fifth Avenue
New York, NY 10151

Attorneys for Amicus Curiae
New York Intellectual Property Law Association

